Case No. 20-8335
IN THE SUPREME COURT OF THE UNITED STATES

GEORGE A. CHRISTIAN, JR.,
Petitioner,
v.
THE STATE OF OKLAHOMA,
Respondent.

On Petition for Writ of Certiorari to the
Oklahoma Court of Criminal Appeals

APPENDIX TO BRIEF IN OPPOSITION

JOHN M. O’CONNOR
ATTORNEY GENERAL OF OKLAHOMA
*JULIE PITTMAN
Assistant Attorney General
313 NE 21st Street
Oklahoma City, Oklahoma 73105
(405) 521-3921
fhc.docket@oag.ok.gov
julie.pittman@oag.ok.gov
Attorney for Respondent
*Counsel of Record

INDEX TO APPENDIX
APPENDIX 1

Application for Post-Conviction Relief, Oklahoma
County, CF-98-3134 [Nov. 1, 2016] ......................................... 001a

APPENDIX 2

Application for Post-Conviction Seeking an Order
Recommending Granting an Appeal Out of Time
w/Motion [sic] to Withdraw Plea, Oklahoma County,
CF-98-3134 [Nov. 1, 2016] ....................................................... 011a

APPENDIX 3

Motion to Withdraw Plea of Guilty, Oklahoma County,
CF-98-3134 [Nov. 1, 2016] ....................................................... 016a

APPENDIX 4

Application for Appeal Out of Time, Oklahoma County,
CF-98-3134 [Nov. 1, 2016] ....................................................... 018a

APPENDIX 5

Pro-Se Motion for Files, Records, Transcripts at Public
Expense –And – All – Discovery – [sic], Oklahoma
County, CF-98-3134 [Nov. 1, 2016] ......................................... 021a

APPENDIX 6

State’s Response to Application for Post-Conviction
Relief, Oklahoma County, CF-98-3134 [Nov. 14, 2016] ......... 027a

APPENDIX 7

Petitioner’s Motion for Discovery, Oklahoma County,
CF-98-3134 [Nov. 23, 2016] ..................................................... 078a

APPENDIX 8

Reply to Application for Post-Conviction Relief,
Oklahoma County, CF-98-3134 [Jan. 11, 2017] ..................... 090a

APPENDIX 9

Petition for Writ of Mandamus, Oklahoma Court of
Criminal Appeals, MA-19-411 [Jun. 4, 2019] ......................... 097a

APPENDIX 10

Order Declining Jurisdiction, Oklahoma Court of
Criminal Appeals, MA-19-411 [Sep. 17, 2019] ....................... 103a

APPENDIX 11

Application for Post-Conviction Relief Seeking an
Order Recommending an Appeal Out of Time,
Oklahoma County, CF-98-3134 [May 8, 2020] ....................... 107a

APPENDIX 12

State’s Response to Supplemental Application for
Post-Conviction Relief, Oklahoma County,
CF-98-3134 [Jun. 9, 2020] ....................................................... 111a
i

APPENDIX 13

Reply to State’s Response to Supplemental Application
For Post-Conviction Relief, Oklahoma County,
CF-98-3134 [July 13, 2020] ..................................................... 113a

APPENDIX 14

Amended Petition in Error with Brief in Support,
Tendered for Filing, Oklahoma Court of Criminal
Appeals, PC-21-75 [Mar. 8, 2021] ........................................... 120a

ii

001a

002a

003a

004a

005a

006a

007a

008a

009a

010a

011a

012a

013a

014a

015a

016a

017a

018a

019a

020a

021a

022a

023a

024a

025a

026a

027a

028a

029a

030a

031a

032a

033a

034a

035a

036a

037a

038a

039a

040a

041a

042a

043a

044a

045a

046a

047a

048a

049a

050a

051a

052a

053a

054a

055a

056a

057a

058a

059a

060a

061a

062a

063a

064a

065a

066a

067a

068a

069a

070a

071a

072a

073a

074a

075a

076a

077a

078a

079a

080a

081a

082a

083a

084a

085a

086a

087a

088a

089a

090a

091a

092a

093a

094a

095a

096a

097a

098a

099a

100a

101a

102a

103a

104a

105a

106a

107a

108a

109a

110a

111a

112a

113a

114a

115a

116a

117a

118a

119a

IN TUE COURT OF CRThTINAL APPEALS
STATE OF OKLAHOMA

Subject To Acccptance Or Rejection By the Court
Of Criminal Appeals Of the State Of Oklahoma.
F( JIIin9s Accepted As Tenda’sd For

g ThisJ1f1Day of_C

MCA 2oZL

COURT CLERK
OURTOFCRHINALAPPLS

aY__p7

GEORGE A CURISTIAN JR.,
AppellantfPetiti6ner,
I1
vs.
TUE STATE OF OKLAHOMA,
Respondent.

fTT n

&

/,

DEPUTY CLEPK
,

UO L’

tY

--s,e1No. CF-199$-3134
Case No. PC-2021-75

AMENDED PETITION IN ERROR WITh BRIEF IN SuPPORT

Appellant/Petitioner, a state prisoner, comes before this Honorable Court, pro Se. in
accordance with Rule 5.2(C), Rules of the Oklahoma Court of Criminal Appeals, and, for his

Petition in Error, in the above-styled caption and numbered cause, states:
1. The statutory authority and type of appeal the appellant/petitioner is filing:
a) This is an appeal from Final judgment under the Post-Conviction Act;
b) The Procedures and Statutory Authority is provided by Rule 5.2(C), et seq., Rules of
Oklahoma Court of Criminal Appeals, Title 22, Ch. 1$, App. 2005; and Title 22 O.S.

§

1080 et seq.
2. The trial court from which the appeal is being lodged and the trial case number:
a) Oklahoma County District Court
b) Case No. Cf-1998-3 134
3. The date on which the District Court’s final Order being appealed was entered, and the name
of the Judge:
a) January

5th,

2021

b) Honorable Timothy R. Henderson, Oklahoma County District Judge

IVED

4. The date on which the Notice of Intent to Appeal was filed:
a) January

19th

MAft g

2021

.

1

120a

5. The crime, together with a citation to the statute or ordinance of which the appellant was
convicted:
a) Kidnapping OS. 21 §741
6. The Judgment and Sentence imposed and the date of pronouncement:
a) A finding of guilt was made by a Judge after a plea of guilty was tendered;
b) On May 3’”, 1999, in accordance with the District Attorney’s recommendation, a term of 5
years probation under the supervision of the Oklahoma Department of Corrections was imposed
by the Honorable Susan Braggs the presiding judge.
7. ifa motion for a new trial was filed, the date the motion was filed and the date it was denied:
a) N/A
8. Whether or not the appellantlpetitioner has been admitted to bail:
a)

The appellant/petitioner bail has been exonerated and has currently completed the

sentence imposed.
9. The nature of the relief the appellant seeks:
a) The nature of the relief sought is Petitioner requests this Honorable Court to vacate the
District Court’s order denying relief and remand with instructions to make findings of facts and
conclusions of law; or to remand instructions to set aside a judgment void on its face as shown
by the record.

Respectfully Submitted,
/

2

121a

(Petitioner’s sign)

{

BRIEF IN SUPPORT
COMES NOW, George A. Christian Jr., hereinafter to be known as ‘Appellant’, before

this Court appealing the District Court denial of relief sought in Oklahoma County Case No.
CF-199$-3134.
Appellant sought relief on Procedures and Statutory Authority is provided by Rule 5.2, et
seq., Rules of Oklahoma Court of Criminal Appeals, Title 22, Ch. 18, App. 2005; and Title 22
O.S.

§

1080-4086 et seq. and seeks appellant court review to redress a due process violation,

specifically as demonstrated in this Petition in Error with Brief in Support.
Appellant comes before this Court as a pauper and without any legal education or
training, and as such, hereby requests that the protections afforded to a pro-se applicant be
provided, and this motion be viewed in a light most favorable to the Petitioner, as held by the
courts of Haines v Kerner, 92 S.Ct. 594 (1972) and Hall vBellmon, 935 F.2d 1106 (1991).

STATEMENT WiTh BRIEF iN SUPPORT
The Appellant’s proposition’s was not properly addressed by the District Court’s attempt
to mimik the state’s response verbatium on the Entry of Judgment’and Conclusion of Facts, as
the attached order demonstrates to the petition in error.
The District Court held that the withdraw of the plea was timely

Appeal was out

of time, due to the ineffectiveness of Malcolm Salvage, in filling out the plea of Guilty/Summary
of facts that is in error, and of no fault of the Appellant’s.
The Court maintained that the Appellant reasons are unclear from the record, and asserted
that the petitioner abandoned his request which is untrue, which by its creation deems and creates
a liberty interest as well as a due process protection.

3

122a

Appellant filed a response to the District Court notifying them that a timely Request for
Appeal Out-of-Time had been filed. The District Court failed to address this matter in the
Judgment set forth, thus depriving the Appellant of a reviewable error. So, in search of
resolution, this question is presented in this cause before this Court.
Due process violations as set forth in the appeal process that has been exhausted to the
best of the Appellant’s abilities. Specifically, the Appellant attempted to comply to the terms set
forth in post-conviction relief, however, whether by error or neglect, the proper procedure to

secure the remedy is the filing of a post-conviction application in district court where findings of
fact and conclusion of law should be made as to whether application was denied a direct appeal
through no fault of his own, which issue is the crucial one to appeal out of time. See Pierce v.
State, Okl.Cr., 456 P.2d 126 (1969).
GROUNDS RAISED IN APPEAL
1.

The investigator never contacted the witness Vicki Hensley on her own accord in

preliminary hearing proves h&s innocent beyond a reasonable doubt, who dated the
Appellant and actually drove to his home in Oklahoma City from Norman Oklahoma.
This witness’s statement was definitely exculpatory in nature and vital to the
Appellant’s defense. Trial counsel failure to properly utilize available evidence or
adequately investigate to identify evidence which could have been made available
during the course of the trial. See Dewberry v. State, 1998 OK CR 10, 954 P.2d 774.
This is but one violation of due process.
Appellant was not provided copies of the witness statements made against him, open or
confidential, and therefore could note effect an adequate defense as these statements are
pertinent to the charge and contain mitigating circumstances and exculpating information.
This court will utilize the following procedure in adjudicating applications regarding

4

123a

ineffective assistance of trial counsel based on evidence not in the record. This court has
jurisdiction under the Post-Conviction Act. Section 1080-1086 et seq. of Title 22., the
conviction and sentence violated due process as guaranteed by the U.S. Constitution to
Amendments 4,5,6, and 14, and the Okla. Const Art, II
2.

§

2,6,7,10, and 20.

The misconduct of Malcolm Salvage is why the Appellant convicted of a kidnapping
that was never a kidnapping. Nowhere is there any evidence of a kidnapping. This due
process violation speaks to the lack of evidence.

3.

Malcolm Salvage filed a demurrer motion to quash on 1/11/99 for insufficient evidence
which is clear and convincing evidence in support of the claims of counsel’s
ineffectiveness for failing to have a hearing on the motion before he plead guilty to a
crime he did not commit, This is not the logic of effective counsel, and by his own
signature thereto, depending on how you view it he had not discussed these rights with
the petitioner because he didn’t find out about the motion to quash until Seventeen years
later. Preliminary hearing transcripts and police reports will demonstrate, that the state
and Malcolm Salvage knew Vicki Hensley was in the room with Stanley smoking crack
in the bathroom, and when she came outside she gave Mr. Christian the keys to drive
because she was to high on crack. She originally had just got off work and left her
mother’s house who lives in Norman, going to Mr. Christian’s home in Oklahoma City
before she made a pit-stop to do drugs at Stanley’s who lives several blocks from Mr.
Christian’s home and therefore the Appellant’s right to due process was again violated.
This alone is grounds for reversal.

4.

Petitioner entered a plea of guilty base on systemic racism twenty years ago, which has
had a long term effect on which was the beginning of a racially bias system here in the
State of Oklahoma which have caused many due process violations.

5

124a

5.

The district court failed to properly respond to the Appellant’s Request for Appeal Outof-time, Malcolm Salvage failed to effectively represent Petitioner and that there was a
misunderstanding as to who would perfect appeal afler plea withdrawal after he knew
the petitioner was not guilty of kidnapping Vicki Hensley on April
was originally set on May

24th

11th

1992 the matter

1999 for hearing before Honorable Susan Bragg, on that

date it was continued to June 2 1999. However, the record reflects at that time the
application was stricken by the court for failure to present, Petitioner was not filly
advised of his right to appeal his conviction or the procedure necessary therein: and that
he did not knowingly waive the right to appeal his conviction within the time allowed by
law. On a plea of Guilty or after a fmding of Guilty that the accused must be advised of
his right to appeal, the right to be represented by a court appointed counsel on appeal,
the right to a case made at public expense, that notice of intent to appeal and request for
a case made must be made within 10 days of the date of judgment and sentence, and
there upon the court must inquire of the prisoner if he desires the appeal, desires a case
made, or desires appointment of counsel, the defendant was not advised of the elements
of the charge, and so the plea was not ‘intelligent” counsel did not provide the defendant
with reasonably competent advice Missouri v. fry 132 S.Ct 1399 (2012), Hill

,‘.

Lockhart 474 U.S. $2 (1985)(petitioner shows he would not have pled guilty if
adequately advised) denying Appellant a proper due process review.
6.

Blades v. State, 2005 OK CR 1, 107 P.2d 607, explains the appropriate course of action

when seeking an appeal.
If Petitioner seeks an appeal out of time, the proper procedure is to
file an application for a Post Conviction Relief with district court
requesting an appeal out of time.... See also 22 0.5. Ch 1$. App.
Rule 2.1.E.(l).
6

125a

Explain: petitioner submits that this error did not exist at the time and could not be raised on
direct appeal. The Petitioner withdrew his plea in as timely manner on May

13th

1999, Malcolm

Salvage’s conduct has been overlooked by the State as to the doctrine of laches due to the
ineffective counsel. In any case, Petitioner is entitled to an appeal out oftime and any procedural
bar argument submitted by the State is prohibited by Article II

§ 6 of the Oklahoma Constitution:

The court ofjustice of the State shall be open to every person, and speedy
and certain remedy afforded for every wrong and for every injury to person,
property or reputation: and right and justice shall be administered without
sale, denial, delay, or prejudice.

CONCLUSION
TUEREFORE, it is requested that this Honorable Court to issue a recommendation for

appeal out of time as he has shown that he was denied an appeal through no fault of his own, and
to reverse the District Court’s Judgment Order, and directs that this matter vacated and remand
request to review Discovery and for Evidentiary hearing with alternative Order granting
Petitioner an Appeal Out of time.

It is so prayed and requested.

Respectfully Submitted,
/2P

4. -irus-

(Petitioner’s signature)

George A. Christian Jr. #276900
LCC Correction Center Unit 6-N2-124
P.O. Box 260
Lexington, OK. 73051

7

126a

VERIFICATION
STATE Of OKLAHOMA

)

) ss.
COUNTY OF CLEVELAI’1D)

VERIFICATION/DECLARATION TiNDER PENALTY OF PERJURY
Pursuant to 12 0.5. Supp. 2002

§ 426, the Petitioner states under penalty of perjury and

under the laws of Oklahoma that the foregoing is true and correct; that the Petitioner has read the
foregoing and affixed his signature hereto at the Lexington Correctional Center on this

March, 2021. Pursuant to 12 O,S.

§ 491

et seq., 22 O.S.

§

4th

day of

748, Rule 4 (c) Rules of the District

Courts of Oklahoma.

A.
(2cLfSe

Print Name

CERTIIICATE OF SERVICE

I, George A. Christian Jr., the undersigned hereby certify that on the

4th

day of March, 2021, I

mailed a true and correct copy of the foregoing by placing same into the institutional legal
mailing system at the Lexington Correctional Center with postage prepaid thereon to:

(signature)
Court Clerk:
320 Robert S. Kerr
Oklahoma City, OK 73102
Oklahoma Court of Criminal Appeals
2100 N Lincoln Blvd,
Oklahoma City, Oklahoma 73105

$

127a

FILED IN DISTRICT COURT
OKLAHOMA COUNTY
IN THE DISTRICT COURT OF OKLAHOMA COUNTY
STATE OF OKLAHOMA

JAN 7 2021
RICK WA1REN

GEORGE ALLEN ChRIsTIAN, JR.,

)

Petitioner,

)
)
)
)
)
)
)

v.
THE STATE OF OKLAHOMA,
Respondent.

COURT CLERK

Case No. CF-199$-3134

ORDER DENYING APPLICATION FOR POST-CONVICTION RELIEF
MATERIALS REVIEWED FOR DECISION
The Court has reviewed the following materials before making its decision:
1. Petitioner’s pleadings for Post-Conviction Relief.
2. State’s Response to Petitioner’s pleadings and attachments thereto.
FINDINGS OF FACT
Petitioner was charged by Information with the following crimes in Oklahoma County
Case No. CF-1998-3 134: Count 1, Kidnapping, AFCF (2 or More); Count 2, Robbery in the first
Degree, AFCF (2 or More); Count 3, Assault and Battery with a Dangerous Weapon, AFCF (2 or
More); and Count 4, Forcible Oral Sodomy, AFCF (2 or More). On May 3, 1999, Petitioner,
represented by counsel, entered a plea of guilty before the Honorable Susan Bragg. Pursuant to
plea negotiations, the State agreed to dismiss the second page of the Information as well as the
charges in Counts 2 through 4. The State further recommended that Petitioner be sentenced to five
years imprisonment, to be suspended in full, on the remaining charge of Kidnapping in Count 1.
The court accepted the plea and sentenced petitioner accordingly. Petitioner was advised of and
acknowledged his right to appeal and the manner in which to invoke that right.

128a

By letter to the Court dated May 2, 1999, and filed on May 13, 1999, Petitioner, pro se,
filed a timely application to withdraw his plea of guilty. Therein, Petitioner stated he entered his
plea of guilty as a result being under a lot of pressure at the time and due to “unusual
circumstances” occurring while being incarcerated while awaiting trial. The matter was originally
set for hearing before the Honorable Susan Bragg on May 24, 1999. However, at that time the
application was stricken by the court for failure to present
On November 1, 2016, Petitioner, pro se, filed an Application for Post-Conviction Relief
requesting an appeal out of time or other unspecified collateral relief. On the same date, Petitioner
also ified an “Application for Appeal Out of Time,” and a “Motion to Withdraw Plea of Guilty.
Within his combined pleadings, Petitioner raises the following arguments:
1. Petitioner received ineffective assistant of counsel where counsel failed to
conduct a reasonable pre-trial investigation and otherwise had a conflict
of interest;
2. Petitioner’s plea of guilty was entered without deliberation and through
ignorance;
3. The prosecutor improperly withheld exculpatory evidence in violation of
Bradyv. Maryland, 373 U.S. 83, 83 S. Ct. 1194,10 L. Ed. 2d215 (1963),
improperly coerced the victim to testify at preliminary hearing, made
improper statements during preliminary hearing, and failed to correct false
testimony at preliminary hearing.
4. The trial Court made an unspecified decision that was based upon an
unreasonable determination ofthe facts and contrary to clearly established
federal law; and

5. Petitioner is entitled to an appeal out of time where he was not advised of
his right to appeal and where counsel failed to automatically initiate an
appeal following his plea of guilty.

CONCLUSIONS OF LAW

2

129a

Petitioner asks this Court to consider the allegations of error presented and recommend that
he granted an appeal out of time or grant him other unspecified relief. However, as discussed
herein, Petitioner is not entitled to an appeal out of time or any other collateral relief.
I.

Petitioner is Not Entitled to a Post-Conviction Relief Out of Time

Petitioner has filed pleadings entitled “Application for Appeal Out of Time” and “Motion
to Withdraw Plea of Guilty.” Additionally, within his Application for Post-Conviction Relief,
Petitioner asserts that he was denied his right to appeal through no fault of his own where neither
the Court nor defense counsel advised him of his right to appeal and where counsel failed to
automatically initiate an appeal following the plea. However, Petitioner’s request for an appeal
out of time is denied as unseasonable and otherwise without merit.
A. Laches
Initially, any request for appeal out of time is barred by laches. It has long been held that
“[a] defendant in a criminal case may waive any right not inalienable, given him by the
Constitution or by the statute, either by express agreement or conduct, or by such failure to insist
upon it in seasonable time....” Sarsycid v. State, 540 P.2d 588, 590 (Okl.Cr. 1975) (quoting
Syllabus of Rapp v. State, 413 P.2d 915 (Okl.Cr. 1966)). Consistent with this principle, the Court
of Criminal Appeals has held that the doctrine of laches can be invoked where the circumstances
of a case indicate that the petitioner has forfeited the right to an appeal out of time by his own
inaction in requesting such relief. Thomas v. State, 903 P.2d 322, 3 30-32 (Okl.Cr. 1995).
In Thomas v. State, 903 P.2d 328 (OkLCr. 1995), the Petitioner’s counsel on direct appeal
failed to ifie a brief on his behalf. Ii at 329. The Court of Criminal Appeals reviewed the record
for fundamental error and, fmding none to exist, affirmed the Petitioner’s conviction and sentence.
Ii Eighteen years later, the Petitioner filed an Application for Post-Conviction Relief claiming,

3

130a

inter alia, to have been denied a direct appeal through no fault of his own where his attorney failed
to file an appellate brief on his behalf Id. At 328-29. The Court noted that the Petitioner appeared
to have been denied an appeal through no fault of his own, but concluded that he was not entitled
to an appeal out of time. Id. at 330-31. In recounting its long history of invoking the doctrine of
ladies in the context of collateral relief, the Court noted that of concern is the State’s ability to
locate evidence and witnesses after passage of long periods of time should a new trial be granted.
Id. at 331. As the Petitioner failed to make a seasonable request for an appeal out of time, the
Court found that the doctrine of laches was properly invoked to deny his clam. Id. at 332.
In the present case, Petitioner entered his plea of guilty over seventeen years ago before
requesting to withdraw his plea and now brings the instant request for relief for the first time.
Certainly if Petitioner, was serious about pressing claim for an appeal out of time, he could have
done so long before now; his failure to do so in a timely manner now warrants invocation of the
doctrine of laches. The circumstances of this case, therefore, indicate a waiver by Petitioner of an
entitlement to an appeal out of time. For this reason alone, petitioner’s request for an appeal out
of time is denied.
B. AppealOutofTime
Even if this Court were not to apply the doctrine of laches, Petitioner’s claim is insufficient
to demonstrate entitlement to an appeal out of time. “[A] defendant waives his right to appeal
when he is aware of that right, but does not bring an appeal within the statutory time period.”
Bickerstaffv. State, 669 P.2d 778, 779 (Okl.Cr. 1983). “The mere absence of an appeal of a
conviction does not wanant a granting of an appeal out of time

...

where the convict knew of said

right but failed to perfect an appeal as required by law.” Whitforth v. State, 450 P.2d 851, 852
(Okl.Cr. 1969). A petitioner seeking an appeal out oftime must show that he was denied an appeal

4

131a

through no fault of his own. Smith v. State, 611 P.2d 276, 277 (OkLCr. 1980), modfled in part on
other grounds, Blades v. State, 107 P.3d 607 (OkLCr. 2005).
It is well settled that the decision of whether or not to take an appeal is the defendant’s
alone to make. Jones v. Barnes, 463 U.S. 745, 751, 103 S. Ct. 3308, 3312, 77 L. Ed. 2d 987
(1983); Buchanan v. Page, 451 P.2d 17, 1$ (Okl.Cr. 1969). As the decision to appeal belongs to
the defendant, it is incumbent upon him to advise the Court or counsel ofhis desire to appeal within
the time provided therefor. As aptly stated by the Court of Criminal Appeals:
Where a defendant knowingly fails to indicate to the Court or to his attorney that
he desires to appeal his conviction, be cannot be heard to complain that he has been
denied any right. Accordingly, such a defendant forfeits the right to appeal his
conviction.
Martin v. Page, 457 P.2d 829, 831 (Old.Cr. 1969); see also Roe v. Flores-Ortega, 528 U.S. 470,
478, 120 S. Ct. 1029, 1035, 145 L. Ed. 2d 985 (2000) (holding that that absent an express request
or some other manifestation of the client’s wish to invoke his or her right to appeal, counsel is not
required to take steps to bring an appeal).
Contrary to his assertions, Petitioner was expressly advised that to invoke his right to
appeal, he was required to file an application to withdraw his plea within ten days. Petitioner was
further advised that, if his application was denied after a hearing on the matter, he could perfect a
certiorari appeal to the Court of Criminal Appeals. In addition, counsel, by his signature thereto,
further affirmed that he bad discussed these rights with Petitioner. In fact, the record indicates that
Petitioner sought to invoke his right to appeal by requesting to withdraw his plea of guilty. For
reasons that are unclear from the record, however, Petitioner abandoned his request. In so doing,
he affirmatively waived his right to appeal. Having waived his right to appeal, Petitioner is not
entitled to an appeal out of time and his request for such relief must be denied.
5

132a

IL

Petitioner is Not Entitled to Post-Conviction Relief

In the alternative, Petitioner asks this Court to consider his remaining allegations of error
and grant him unspecified relief. However, Petitioner is not entitled to post-conviction relief. The
Post-Conviction Procedure Act, Title 22 0.5.

§ 1080, et seq., Is the proper vehicle by which a

petitioner can challenge the legality of the conviction or sentence imposed. 22 0.5. 2011,

§ 1080;

etseq.,Mahlerv. State, 783 P.2d973, 973 (OkLCr. 1989). However, the Act is neither a substitute
for a direct appeal nor a means for a second appeal. Maines v. State, 597 P.2d 774, 775-76 (Old.Cr.
1979); Fox v. State, 880 P.2d 383, 384 (OkLCr. 1994). The scope of this remedial measure is
strictly limited and does not allow for litigation of issues available for review at the time of direct
appeal. Castro v. State, 880 P.2d 387, 388 (OkLCr. 1994). Issues that were not raised on direct
appeal, but could have been raised are waived. Fields v. State, 946 P.2d 266-69 (OkLCr. 1997).
All issues that have been previously raised and ruled upon are barred from consideration by the
doctrine of res judicata, Id
An exception to these rules exists where a court finds sufficient reason for not asserting or
inadequately presenting an issue in prior proceedings or “when an intervening change in
constitutional law impacts the judgment and sentence.” Biyson v. State, 903 P.2d 333, 334 (Old.Cr.
1995); 22 0.S. 2011

§ 1086. Sufficient reason for failing to previously raise or adequately assert

an issue requires a showing that some impediment external to the defense prevented the petitioner
and counsel from properly raising the claim. Johnson v. State, 823 P.2d 370, 373 (Okl.Cr. 1991).
In the present case, each of Petitioner’s arguments could have been raised in an application
to withdraw his plea and thereafler, on certiorari appeal. Petitioner does not offer this Court any
reason, external to the defense, for failing to previously assert these issues. Thus, consideration of

6

133a

these propositions of error is barred by the doctrine of waiver. The Court of Criminal Appeals has
stated that where a claim is procedurally barred, there is no need to address the merits of the issues
presented. Boydv. State, 915 P.2d 922, 924 (Okl.Cr. 1996). As aptly stated by the Court:
In the case sub judice, Petitioner was afforded an opportunity to pursue a direct
appeal; he specifically decline to do so. As a result, he is bound by that earlier
decision; as a consequence of that decision, he has forfeited his right to have this
Court consider [issues], which would have been readily available for that direct
appeal.
Wallace v. State, 935 P.2d 366, 370 (Okl.Cr. 1997) (citation omitted). Accordingly, the
allegations of error raised by Petitioner need not be addressed and the Application for PostConviction Relief is denied as a matter of law.
A. Ladies
In addition to the procedural bar of waiver, Petitioner’s allegations of error should be barred
by laches. It has long been held that “[a] defendant in a criminal case may waive any right not
inalienable, given him by the Constitution o rby the statute, either by express agreement or conduct,
or by such failure to insist upon it in seasonable time

. . . .“

Sarsycki v. State, 540 P.2d 588, 590

(OkLCr. 1975) (quoting Syllabus of Rapp v. State, 413 P.2d 915 (Old.Cr. 1966)). Consistent with
this principle, the Court of Criminal Appeals has held that the doctrine of laches can be invoked
where the circumstances of a case indicate that the petitioner has forfeited the right to collateral
relief by his or her own inaction in seeking the same. Paxton v. State, 903 P.2d 325, 327 (Okl.Cr.
1995); Thomas v. State, 903 P.2d 328, 332 (OkLCr. 1995). While federal courts require the state
to demonstrate actual prejudice before laches is triggered, there is no such requirement under
Oklahoma law. Id. Rather, “[t]he applicability of the doctrine of laches necessarily turns on the
facts of each particular case.” Id.

7

134a

The Court of Criminal Appeals has set forth an even more stringent standard where a petitioner
seeks to collaterally challenge a sentence after it has been discharged; “a trial court is without
jurisdiction to modify, suspend, or otherwise alter a judgment which has been satisfied except to
set aside a judgment void on its face as shown by the record.” fitchen v. State, 826 P.2d 1000,
1001 (Old.Cr. 1992). A judgment is not void on its face where the trial court had jurisdiction of
the person, jurisdiction of the subject matter, and authority under the law to pronounce judgment
and sentence as rendered. See Bumpus v. State, 925 P.2d 1208, 1210 (Okl.Cr. 1996) (citing In re
Brewster, 284 P.2d 755, 757 (Old.Cr. 1955)).
Petitioner entered his plea of guilty over twenty years ago. Petitioner does not contest and the
record reflects that the trial court in the present case had jurisdiction over Petitioner, as well as the
subject matter, and had authority to imposedjudgment and sentence. By its very terms, Petitioner’s
sentence has expired. As such, this Court has no authority to vacate or otherwise modify the
Judgment and Sentence. Petitioner’s claims are wholly without merit.
B. Voluntary Nature of the Plea
In his motions and Application for Post-Conviction Relief, Petitioner challenges the
voluntariness of his plea of guilty claiming it was entered through ignorance and without
deliberation. It is axiomatic that a plea of guilty must be entered into in a knowing and voluntary
manner. A plea of guilty is valid where the record reflects it to be a product of the voluntary and
intelligent choice between alternative courses of action available to the defendant. North Carolina
v. Alford, 400 U.S. 25, 31, 91 S. Ct. 160, 164, 27 L. Ed. 2d 162 (1970). In Kingv. State, 553 P.2d
529 (Okl.Cr. 1976), the Court of Criminal Appeals announced the procedures a trial court should
follow in accepting guilty pleas. “The plea acceptance guidelins are thought to assemble numerous

8

135a

facts which bear materially on the voluntary, knowing, understanding and intelligent quality of
tendered guilty pleas

. . . .“

State v. Durant, 609 P.2d 792, 794 (OkLCr. 1980).

Under King, the court must first determine if the defendant is competent. King v. State, 553
P.2d 529, 534 (Okl.Cr. 1976). This should be accomplished through interrogation of the defendant
and counsel regarding past and present mental state, as observation of the defendant’s demeanor
before the court. Id. A court must also advise the defendant of the nature and consequences of
the guilty plea. Id. This should include advising the defendant of the right to trial counsel, the
right to a jury trial, the right to confront witnesses, the privilege against self-incrimination, and the
range of punishment for the crime charged. Id at 534-335.
In addition, the court msut advise the defendant that by exercising the right to a jury, the State
will be required to prove the allegations contained in the information beyond a reasonable doubt,
and that by entering the plea of guilty he waives these rights. Id. at 535. The mandates of King
also require the trial court to determine the voluntariness of the plea, including whether or not plea
is the result of force, threats, or coercion. Id. Where the court determines the plea is the result of
a plea agreement, the court shall inquire as to the factual basis of the plea and require full disclosure
of the terms of the plea agreement, Id
As reflected by the record, the trial court followed the guidelines of King in accepting
Petitioner’s plea of guilty, The Court began by inquiring of Petitioner’s competence to understand
the proceedings. Petitioner stated he had a high school education and was able to read and
understand the questions on the Plea of Guilty Summary of Facts form. Petitioner advised that he
had not taken any medications or other substances nor had he failed to take necessary medication
such that would his ability to understand the proceedings would be affected. Petitioner further

9

136a

advised that he had no history of mental illness. Petitioner was asked “Do you unders
tand the
nature and consequences of this proceeding?” to which Petitioner responded “yes.” In
addition to
the inquiry of Petitioner, defense counsel advised the court that Petitioner was able to
assist in his
defense and was able to understand the nature and consequences of the proceedings such
that his
plea was knowingly and voluntarily entered.
At the time of the plea, Petitioner acknowledged that he received a copy of the Inform
ation
and understood the crimes with which he was charged. Petitioner was advised of the
range of
punishment for Kidnapping. In accepting the plea of guilty, the court advised petitio
ner of his
right to jury trial and associated rights. Petitioner acknowledged that he understood that
he would
waive these rights upon his plea of guilty.
Petitioner advised the court that he had fully discussed the charges against him with
counsel
and wished to enter his plea of guilty because he committed the acts as alleged by the State.
He
further provided a written statement in support of the factual basis for the plea. In accord
ance with
King, the trial court inquired of the voluntariness of the plea to which Petitioner advise
d that he
entered the plea of his own free will without coercion from any source. Finally, Petitio
ner stated,
under oath, that the answers contained in the Summary of Facts form were true and correct
and
that he may be prosecuted for perjury for any false statements made therein.
The record before this Court is unequivocally clear and Petitioner’s plea of guilty was
an
intelligent choice among alternative courses of action and, thus, was knowingly and volunt
arily
entered. Petitioner’s claim to the contrary is without merit and is rejected.
C. Effective Assistance of Counsel

10

137a

In what he labels as his first, third, fourth, sixth, and eighth propositions of error, Petitioner
contends he received ineffective assistance of counsel. Although raised in five separate claims,
Petitioner fails to clearly articulate the separate errors he believes to have been committed by
counsel. He does, however, state that counsel was ineffective in failing to conduct adequate
investigation and formulate a theory of defense. He further claims counsel had a conflict of
interest. These allegations will be addressed in turn.
1. Conflict of Interest
In his sixth proposition of error, Petitioner makes passing reference to counsel having a conflict
of interest. A conflict of interest arises where counsel “owes conflicting duties to the defendant
and some other person.” Allen v. State, 274 P.2d 60, 63 (OkLCr. 1994). Where no objection on
the basis of a conflict of interest is made during the court proceedings, a petitioner seeking to
establish a claim of ineffective assistance of counsel thereon must establish the existence of an
actual conflict of interest that adversely affected counsel’s performance. Cuyler v. Sullivan, 446
U.S. 335, 348-49, 100 S. Ct. 1708, 1718-19, 64 L. Ed. 2d 333 (1980); Carey v. State, 902 P.2d
1116, 1118 (Okl.Cr. 1995). The mere “possibility of a conflict is insufficient to impugn a criminal
conviction.” Id., 446 U.S. at 350, 100 S. Ct. at 1719; Banks v. State, 810 P.2d 1286, 1296 (Okl.Cr.
1991). “[U]ntil a defendant shows that his counsel actively represented conflicting interests, he
has not established the constitutional predicate for his claim of ineffective assistance.” Id., 446
U.S. at 350, 100 5. Ct. at 1719.
In the present case, Petitioner claims counsel was under a conflict of interest, but does not
specify on what basis he believes counsel was representing competing interests. Petitioner’s vague
allegation does nothing to demonstrate the existence of an actual conflict of interest. In the absence
of an actual conffict of interest, Petitioner must demonstrate actual harm. This he cannot do.

11

138a

Petitioner offers this Court nothing to demonstrate that he would not have otherwise entered his
plea of guilty. Petitioner has failed to establish either the existence of an actual conflict of interest
or actual harm from a potential conflict and, thus, his challenge to the efficacy of counsel must
fail.
2. Generalized Claims of Ineffectiveness
Like his claim of a conflict of interest, Petitioner’s remaining challenges to counsel’s
performance are vague and conclusory. These, however, do not entitle him to relief.
The analysis of a claim of ineffective assistance of counsel “begins with the presumption that
trial counsel was competent to provide the guiding hand that the accused needed, and therefore the
burden is on the accused to demonstrate both deficient performance and resulting prejudice.”
Turrentine

y.

State, 965 P.2d 955, 970 (Okl.Cr. 1998).

In order to demonstrate ineffective

assistance of counsel, a petitioner must make two showings: (1) counsel’s performance was so
seriously deficient that representation fell below an objective standard of reasonableness and was
not within the range of competence demanded of attorneys in criminal cases; and (2) but for
counsel’s unprofessional errors, there is a reasonable probability that the result of the proceedings
would be different. Stricklandv. Washington, 466 U.S. 68$, 687-88, 104 S. Ct. 2052,2064, 80 L.
Ed.2d 674 (1984).
In order to satisfy the prejudice requirement of Strickland in the context of a guilty plea, a
petitioner must show that, but for the error of counsel, he would not have pled guilty and would
have instead insisted on going to trial. Hill v. Lockhart, 474 U.S. 52, 59, 106 S. Ct. 366, 370, 88
L. Ed. 2d 203 (1985); Lozoya v. State, 932 P.2d at 31 (Okl.Cr. 1996). A petitioner must do more
than simply state that, but for counsel’s error, he would not have pled guilty, for any court would
fmd such a statement suspect. Lozoya, 932 P.2d at 31. if a petitioner cannot demonstrate he was

12

139a

prejudiced, a court need not determine if counsel’s perfonnance was deficient. Howel
l v. State,
967 P.2d 1221, 1226 (Okl.Cr. 1998), overruled in part on other grounds, Fitzgerald
v. State, 61
P.3d 901, 905 (OkLCr 2002).
Applying these principles to the case at bar, Petitioner’s challenge to the efficac
y of counsel
must fail. As presented, Petitioner’s challenges to the effectiveness of counsel are
nothing more
than conclusory allegations of deficient performance. Yet, “[c]onclusory alegati
ons, standing
alone, will never support a fmding that an attorney’s performance was deficient.”
Smith v. State,
955 P.2d 734, 738 (Okl.Cr. 1998); see also, Perry v. State, 853 P.2d 198, 203
(Old.Cr. 1993)
(generalized claim of ineffectiveness for failing to file motions insafficient to meet
burden under
Strickland); Trice v. State, 912 P.2d 349, 355 n.24 (OkLCr. 1996) (“bare allegat
ions of defense
counsel’s unpreparedness do not support a claim of ineffective assistance of counse
l”); Boyd v.
State, 839 P.2d 1363, 1373 (Okl.Cr. 1992) (generalized claim of inadequate investi
gation and
preparation and failure to file unspecified motions insufficient to establish claim
of ineffective
assistance).
In rejecting Petitioner’s claim, it need only be noted:
The principle value of counsel to the accused in a criminal prosecution often
does not lie in counsel’s ability to recite a list of possible defenses in the
abstract, nor in his ability, if time permitted, to amass a large quantum of
factual data and inform the defendant of it. Counsel’s concern is the faithful
representation of the interest of his client and such representation frequently
involves highly practical considerations as well as specialized knowledge of
the law. Often the interests of the accused are not advanced by challenges
that would only delay the inevitable date of prosecution
by contesting all
guilty
A prospect of plea bargaining, the expectation or hope of a lesser
sentence, or the convincing nature of the evidence against the accused are
considerations that might well suggest the advisability of a guilty plea
...,

....

13

140a

Braun v. State, 909 P.2d 783, 796 (Okl.Cr. 1995) (quoting Brady v. United States, 397 U.S. 742,
756-57, 90 S. Ct. 1463, 25 L. Ed. 2d 747 (1970)). This principle applies with equal force to the
case at bar.
There is nothing to suggest that counsel’s advice that Petitioner enter a plea of guilty was
made with anything but primary concern for his interests after professional evaluation of the
evidence against him. The record reflects that Petitioner fully discussed the charges against him
and any possible defenses with counsel and was satisfied with counsel’s advice in the matter.
Having failed to satisfy either inquiry of the Strickland standard, petitioner’s claim is denied.
D. Prosecutorial Misconduct
In what he labels as his seventh proposition of error, Petitioner appears to assert multiple claims
of prosecutorial misconduct. Although it is far from clear, Petitioner appears to urge that the State
failed to disclose exculpatory evidence, improperly coerced the victim to testify at preliminary
hearing, made improper statements at preliminary hearing, and failed to correct false testimony at
preliminary hearing.
1. failure to Disclose Evidence
Initially, Petitioner avers the prosecutor failed to disclose exculpatory evidence in violation of
Brady v. Maryland, 373 U.S. 83, 83 S. Ct. 1194, 10 L. Ed. 2d 215 (1963). “There is a presumption
of regularity in the trial court proceedings. As a consequence, it becomes the burden of the
convicted defendant on appeal

—

whether on direct appeal or post-conviction

—

to present to this

Court sufficient evidence to rebut this presumption.” Brown v. State, 933 P.2d 316, 324-25 (Old.
Cr. 1997) (citations omitted). Included in this principle, is the presumption that prosecutors, as
officers of the court, adhere to their duty to disclose evidence. Id.; McCarty v. State, 989 P.2d
990, 997 (Old.Cr. 1999). “It is the burden of the party claiming that the evidence has been withheld

14

141a

to show that the evidence was, in fact, withheld.” Van Woude
nberg v. State, 942 P.2d 224, 227
(Okl.Cr. 1997).
Petitioner’s claim of prosecutorial misconduct is entirel
y insufficient to overcome the
presumption of regularity. Petitioner has failed to demonstrate
that exculpatory evidence within
the meaning of Brady actually exists. In fact, while he claims
evidence was withheld, he doesn’t
specify what that evidence was. Even if it presumed that
such evidence exists, Petitioner has
wholly failed to demonstrate that on March 8, 1999, the State
filed a Notice of Open file Discovery.
Having failed to make any showing that exculpatory evidence

within the meaning of Brady existed

and was improperly withheld by the prosecutor, Petitio
ner’s claim does not overcome the
presumption of regularity in court proceedings. Accordingly, Petitio
ner’s claim to the contrary is
denied.
2.

failure to Correct False Testimony

In his seventh proposition of error, Petitioner states that the pros
ecuto

r concealed a crime, but

does not specify what that crime was or who committed it
or how it was concealed by the State;
his reference to Napue v. illinois, may suggest that his intend
ed claim is one of prosecutorial
misconduct in failing to correct false or misleading testimony.
As noted in the preceding section, “There is a presumption
of regularity in the trial court
proceedings.” Brown v. State, 933 P2d 316, 324-25 (OkLCr.
1997) (citation omitted). Included
in this principle, is the presumption that prosecutors, as officer

s of the court, do not suborn perjury

or otherwise aliw false testimony to go uncorrected. Cargte v. State,
947 P.2d 584, 589 (Okl.Cr.
1997); Hatch v. State, 924 P.3d 284, 295-96 (OkLCr. 1996). In
order to obtain relief upon such an
allegation, Petitioner bears the burden of establishing that (1)
false or misleading testimony was

15

142a

presented, (2) that the prosecutor knowingly used such testimony and (3) that
the testimony was
material to guilt or innocence. Omaiza v. State, 991 P.3d 286, 307 (OkLC
r. 1995).
As with the other allegations of error presented by this Application for Post-C
onviction
Relief, Petitioner’s claim of prosecutorial misconduct on this basis is vague conclu
sory. In fact,
Petitioner fails to identify what portion of the victim’s testimony at preliminary
hearing was false
or misleading. Nor does Petitioner explain how the prosecutor knew such testimo
ny was false.
An unsupported, self-serving claim such as this is entirely insufficient
to overcome the
presumption of regularity in trial proceedings. Certainly, such a vague allegat
ion falls drastically
short of demonstrating that the prosecutor knowingly presented false testimo

ny and that the same

was material to Petitioner’s guilt or innocence. Accordingly Petitioner’s claim
of prosecutorial
misconduct on this allegation is denied.
3. Improper Conduct at Preliminary Hearing
In his fmal claim of prosecutorial misconduct, Petitioner appears to urge that the
prosecutor
improperly coerced the victim to testify at preliminary hearing and made improp
er statements
during the hearing. Apart from procedural bar of waiver, any claims in this respec
t have been
waived by Petitioner’s plead. Berget v. State, 824 P.2d 364, 372 (Okl.Cr. 1991);
Rodgers v.
State, 483 P.2d 1375, 1376 (OkLCr. 1971); Ledgerwood v. State, 455 P.2d
745, 746-47 (Okl.Cr.
1969). So too has the United States Supreme Court. “[A] When a criminal defend
ant has
solemnly admitted in open court that he is in fact guilty of the offense with which
he is charged,
he may not thereafter raise independent claims relating to the deprivation of constit
utional rights
that occurred prior to the entry of the guilty plea.” Tollett v. Henderson, 411
U.S. 258, 267, 93
S. Ct. 1602, 1608, 36 LEd. 2d 235 (1973).

16

143a

Petitioner’s conviction is the result of his own voluntary admiss
ion of guilt. Accordingly,
he is now estopped from urging entitlement to relief on the
grounds that defects, constitutional or
otherwise, occurred in the preliminary hearing prior to the entry
of his plea.
E. Thai Court Error
Throughout his application, Petitioner states that the trial
court made one or more decisions
which were based on an unreasonable determination of
the facts andlor an unreasonable
application of clearly established law. Beyond mere asserti
ons that error occurred, Petitioner
makes no attempt to develop his claims. The Court of Crimin
al Appeals has long held: “a party
complaining of error must show not only that some error
occurred, but also that some injury
resulted from the error.”

Carpenter v. State, 929 P.2d 988, 994 (OkLCr. 1996).

At best,

Petitioner’s allegation establishes nothing more than error in
the abstract for which he has neither
articulated nor proven prejudice. As such, Petitioner
is not entitled to collateral relief on these
grounds and his claims to the contrary are denied.
ifi.

Request for Discovery and Evidentiary Hearing

Finally, within his application and by separate motion, Petit
ioner requests this Court to
allow him to conduct discovery. The Court of Criminal
Appeals has recognized that neither the
Oklahoma Discovery Code nor the Oklahoma Criminal Discov
ery code apply to post-conviction
proceedings. Blandv. State, 991 P.2d 1039, 1041 (Okl.Cr.
1999). In fact, a court is not authorized
to order discovery on issues it is precluded form considering.
Cargie v. State, 947 P.2d 584, 590
(OkLCr. 1997). As Petitioner’s claims are procedurally barred
by the doctrine
has not authority to grant Petitioner’s request.

17

144a

of waiver, this Court

CONCLUSION
Petitioner was fully advised of his right to appeal and the manner in which to invoke that
right. By abandoning his application to withdraw plea of guilty, Petitioner affinnatively waived
his right to appeal. Accordingly, Petitioner’s is not entitled to an appeal out of time. Nor is
Petitioner entitled to collateral relief. Petitioner’s Propositions of error are not proper for postconviction review as they could have been raised in a timely appeal. Petitioner does not offer this
Court sufficient reason to avoid application of the doctrine waiver. Thus consideration of those
arguments is procedurally barred.

In addition, the doctrine of laches is applied to preclude

collateral challenge to Petitioner’s convictions. Apart from the procedural bars of post-conviction
review and the doctrine of laches, Petitioner’s claims are without merit.
It is therefore ORDERED by the Court, for the reasons set out above, Petitioner’s
Application for Post-Conviction Relief is denied.
Dated this S77€ay of January. 2021.

0N
DISTRICT JUDGE

COPY
CERTIFIED
AS FILED OF RECORD
IN DISTRICT COURT

18

145a

JAN —7 ZOZi
COURT CLERK

RICK WARREN Oklahoma County

NOTICE OF RIGHT TO APPEAL
A final judgment under this act [Post-Conviction Procedure Act, 22 0.S. § 1080, etseq.] may
be appealed to the Court of Criminal Appeals on petition in error filed either by the applicant
or the State within thirty (30) days from entry of the judgment. Upon motion of either party
on filing of notice of intent to appeal, within ten (10) days of entering the judgment, the
district court may stay the execution of the judgment pending disposition on appeal;
provided the Court of Criminal Appeals may direct the vacation of the order staying the
execution prior to final disposition of the appeal. 22 0.8. § 1087. The party desiring to appeal
from the fmal order must ifie a Notice of Post-Conviction Appeal with the Clerk of the
District Court within twenty (20) days from the date the order is filed in the District Court.
Rules 2.1(E)(1) & 5.2(C)(1), Rules of tire Oklahoma Court of Criminal Appeals, Title 22, Ch.
18 App. (2018).

CERTIFICATE OF SERVICE
I hereby certify that on the

day of January, 2021, I mailed a certified copy of the above and

foregoing order, with postage thereon fully prepaid, to:
George Christian, Jr.,
Lexington Correctional Center
Post Office Box 260
Lexington, OK 73051
Oklahoma Court of Criminal Appeals
2100 North Lincoln Boulevard
Oklahoma City, Oklahoma 73105
and that a true and correct copy of the above and foregoing order was hand-delivered to:
Jennifer Hinsperger, Assistant District Attorney
Oklahoma County District Attorney’s Office

oieriE

19

146a

